        Office of Inspector General
        Mid-Atlantic Audit Division
        Final Audit Report



      Final Report on Region III’s
   Children’s Health Initiative on the
Asbestos Hazard Emergency Response Act
               (AHERA)

         Report Number 2000-P-00024

             September 28, 2000
Inspector General Division
Conducting the Audit:        Mid-Atlantic Audit Division
                             Philadelphia, PA


Program Offices Involved:    Waste and Chemicals
                             Management Division
                             Philadelphia, PA

                             Office of Enforcement and
                             Compliance Assurance
                             Washington, D.C.

Region Covered:              Region III

States Covered:              Maryland Department of the
                             Environment
                             West Virginia Department of
                             Health and Human Resources

Audit Team:                  Victoria Rawle, Michael Wall,
                             Karen Wodarczyk, Teri
                             Woodcock

                             We would also like to
                             acknowledge Garry Sherman,
                             Former Regional Asbestos
                             Coordinator, for his
                             contributions to this report.
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            OFFICE OF INSPECTOR GENERAL
                               MID-ATLANTIC DIVISION
                                 1650 Arch Street
                       Philadelphia, Pennsylvania 19103-2029
                                   (215)814-5800




September 28, 2000

MEMORANDUM

SUBJECT: Final Report on Region III’s Children’s Health Initiative
         on the Asbestos Hazard Emergency Response Act (AHERA)
         Report Number 2000-P-00024


FROM:        Carl A. Jannetti
             Divisional Inspector General for Audit
              Mid-Atlantic Division (3AI00)

TO:          Steven A. Herman
             Assistant Administrator for Enforcement
               and Compliance Assurance (2201)

             Bradley M. Campbell
             Regional Administrator (3RA00)

       Attached is our final audit report on Region III’s Children’s Health Initiative
on the AHERA program. The overall objectives of this audit were to determine the:
(1) status of the Region III Children’s Health Initiative on the AHERA inspection
program; (2) adequacy of EPA’s stewardship over the various State inspection
programs within Region III; and (3) human resources necessary to maintain a
viable AHERA inspection program.

       This audit report contains issues that describe conditions the Office of
Inspector General (OIG) has identified and corrective actions the OIG recommends.
This audit report represents the opinion of the OIG. Final determinations on
matters in this audit report will be made by EPA managers in accordance with
established EPA audit resolution procedures. Accordingly, the findings contained
in this audit report do not necessarily represent the final EPA position, and are not
binding upon EPA in any enforcement proceeding brought by EPA or the
Department of Justice.
ACTION REQUIRED

       This report makes recommendations to the Assistant Administrator for the
Office of Enforcement and Compliance Assurance (OECA) and the EPA Region III
Administrator. In accordance with EPA Order 2750, the action official is required
to provide a written response to the audit report within 90 days of the date of this
report.

        In responding to the draft report and during the exit conference, Region III
officials provided corrective actions and milestone dates for the recommendations
applicable to Region III. Therefore, no further response to this report is required by
the Regional Administrator.

      We have no objections to the further release of this report to the public.
Should your staff have any questions about this report, please have them contact
Michael Wall or Teri Woodcock at (215) 814-5800.

Attachment
                     EXECUTIVE SUMMARY


Purpose            The purpose of our audit was to determine the:

                   (1)   Status of the Region III Children’s Health Initiative
                         on the Asbestos Hazard Emergency Response Act
                         (AHERA) inspection program.

                   (2)   Adequacy of EPA’s stewardship over the various State
                         AHERA inspection programs within Region III.

                   (3)   Human resources necessary to maintain a viable
                         AHERA inspection program.

Results-in-Brief   Our audit disclosed several areas needing improvement with
                   respect to the AHERA inspection program.

                   Region III Needs to Increase Inspections

                   At current staffing levels, the Region is unable to perform an
                   adequate number of asbestos compliance inspections. For
                   the most part, the Region inspects only an infinitesimal
                   number of schools because it can only respond to tips and
                   complaints it receives about possible asbestos problems in
                   schools. This situation arose, in part, because the number of
                   Region III inspectors has decreased over the past two years.
                   As a result, the Region is unable to provide the coverage
                   necessary to assure that school districts are complying with
                   AHERA, which in turn places school children and school
                   employees at risk. Moreover, at the time of our audit, EPA
                   Headquarters was suggesting a “disinvestment” from the
                   Agency’s asbestos inspection program.

                   EPA Must Inform Charter Schools About Asbestos

                   AHERA applies to all public and non-profit private schools,
                   kindergarten through grade 12. However, as of April 2000,
                   EPA has had very limited contact with “charter schools,”
                   apparently because of resource constraints. As a result, an
                   unknown but possibly large percentage of the 1,605 charter


                                      i

                                                           Report No. 2000-P-00024
                    schools attended by 250,000 students nationwide have never
                    been inspected for asbestos. This lack of inspections is a
                    consequence of the schools not knowing they are mandated
                    by AHERA to do so. The lack of knowledge occurred in part
                    because EPA did not inform the schools of this mandate.
                    Consequently, school students and employees may be
                    unknowingly exposed to the dangers of asbestos.

Recommendations We recommended that the Region III Administrator devote
                the resources necessary to operate a viable asbestos
                inspection, outreach, and enforcement program. Region III
                officials advised that although the AHERA program would
                receive no additional inspectors, an inspector from another
                program would also conduct asbestos inspections. The
                Region’s response is noted. At a future date, we will perform
                a follow-up review to determine the adequacy of the corrective
                actions.

                    We recommended that the Assistant Administrator for the
                    Office of Enforcement and Compliance Assurance (OECA)
                    notify all charter schools of AHERA mandates, and develop a
                    strategy to ensure that the charter schools comply with
                    AHERA.

                    OECA agreed with our recommendation to notify charter
                    schools of AHERA mandates. With respect to the
                    recommendation that OECA develop a strategy to ensure that
                    charter schools comply with AHERA, OECA advised that due
                    to severe budget constraints, it will not direct the Regions to
                    invest additional resources in compliance assistance or
                    monitoring in the AHERA program. However, during the exit
                    conference, OECA said it will notify the Regions to include
                    charter schools in the universe of schools inspected.

                    OECA’s agreement to disseminate information regarding
                    AHERA requirements is a good step. While we recognize that
                    the Agency has budget constraints, we believe that OECA
                    should, at a minimum, advise the Regions to include charter
                    schools in their current compliance and monitoring strategies.
                    During the exit conference, OECA agreed to do so.




                                       ii

                                                            Report No. 2000-P-00024
                                      TABLE OF CONTENTS
CHAPTER 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
    INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 1
         Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           1
         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                1
         Noteworthy Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            5
         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       5
         Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    6

CHAPTER 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
    REGION III NEEDS TO INCREASE INSPECTIONS . . . . . . . . . . . . . . . . . . 7
         District of Columbia Public Schools . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
         Region III Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
         Disinvestment of Small Federal Programs . . . . . . . . . . . . . . . . . . . . . 12
         Core Minimum Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
         Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
         Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
         Region III’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
         OIG’s Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

CHAPTER 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     17
    EPA MUST INFORM CHARTER SCHOOLS ABOUT ASBESTOS . . . . . .                                                                17
         Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               21
         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      21
         OECA’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    21
         OIG’s Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   22
         Region III’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    22
         OIG’s Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   22

CHAPTER 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     23
    EFFECTIVENESS OF INSPECTIONS UNDERSTATED . . . . . . . . . . . . . .                                                      23
         Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     25
         Region III’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    25
         OIG’s Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   25

APPENDIX 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
    Region III’s Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

APPENDIX 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
    OECA’s Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

APPENDIX 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
    Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
[This page was intentionally left blank.]
                       CHAPTER 1

                   INTRODUCTION


Purpose      The purpose of our audit was to determine the:

             (1)   Status of the Region III Children’s Health Initiative
                   on the AHERA inspection program.

             (2)   Adequacy of EPA’s stewardship over the various State
                   AHERA inspection programs within Region III.

             (3)   Human resources necessary to maintain a viable
                   AHERA inspection program.


Background                       Asbestos was most commonly used in
              Asbestos Use
                                 schools as insulation and in building
                                 materials. But it has also been found in
                                 floor and ceiling tile, cement pipe,
             corrugated-paper pipe wrap, acoustical and decorative
             insulation, and pipe and boiler insulation. Substantial
             amounts of asbestos, particularly in sprayed form, were used
             in school buildings during the period 1940 through 1973. In
             1973, EPA banned most uses of spray-on asbestos materials.

                                Asbestos tends to break down into a dust
             Health Risks       of microscopic size fibers. Because of their
                                size and shape, these tiny fibers remain
                                suspended in the air for long periods of
             time and can easily penetrate body tissues after being
             inhaled or ingested. If inhaled, asbestos fibers can cause
             mesothelioma (cancer of the chest and abdominal linings),
             lung cancer, and asbestosis (irreversible lung scarring).
             Symptoms of these diseases generally do not appear for 10 to
             30 years after exposure. Thus, exposure to asbestos early on
             in childhood can significantly increase health risks because
             these diseases may not show up until many years afterward.




                                1

                                                      Report No. 2000-P-00024
 And, according to EPA, there is no safe level of asbestos
exposure.

The potential for an asbestos-containing material to release
fibers depends primarily on its condition. If the material
crumbles by hand pressure, it is known as “friable” and
friable asbestos often flakes off as a fine dust that settles on
surfaces. Fibers can then be stirred up into the air as
children walk through school buildings.

According to the U.S. Department of Education, there are
currently 53.2 million children enrolled in the Nation’s
public and private elementary and secondary schools. EPA
estimates that there is asbestos in approximately 107,000 of
these schools.

Because the average public school in America is 42 years old,
and because asbestos has a useful life span of 30 years, some
of the asbestos material is releasing asbestos fibers into the
air of the schools. Consequently, schools spend a lot of
money on asbestos projects. According to a 1995 General
Accounting Office report, public schools spent $1.7 billion
over a three-year period to fulfill Federal asbestos
requirements (i.e. inspections, response actions including
encapsulation, repair, enclosure, and removal) and would
need an additional $2.4 billion over the next three years to
fulfill these requirements.

Concerned about the health of school children, in 1986,
Congress passed AHERA. The Act required EPA to
promulgate regulations requiring: (1) inspections of asbestos-
containing material in the Nation’s schools; (2) development
of asbestos management plans for such schools; and, (3)
implementation of appropriate response actions to remedy
any asbestos-related problems in a safe and complete
manner.

                         In 1987, EPA issued the “Asbestos-
 Asbestos “Rule”         Containing Materials in Schools
                         Rule,” under the authority of the
                         AHERA enacted by Congress.
The “Rule” requires each “Local Education Agency,” e.g.,
school district, to designate either a consultant or a school


                    2

                                          Report No. 2000-P-00024
employee, as the single point of contact for public
information about asbestos-related activities. This designee
is to be trained and is responsible for ensuring that:

-     All schools within the district are inspected for
      asbestos.

-     All schools are reinspected every three years
      thereafter.

-     Surveillance activities are performed by qualified
      personnel on a semiannual basis.

Each school district is also to be aware of any local asbestos
control requirements, and must inform parents, teachers,
and other school workers annually about the “asbestos
management plan.”

                           The “Rule” requires school districts
Management Plans           to develop and implement an
                           asbestos management plan for each
                           of its schools. The purpose of such a
plan is to control exposure by assuring that all asbestos-
containing materials are kept in good condition. Specifically,
the plan indicates the location and condition of any asbestos
within a school building, as well as any information
regarding sampling, analyses, or assessments that have been
performed. These plans were to have been submitted by
October 1988 to the appropriate state agencies for review
and approval. School districts are required to maintain an
updated asbestos management plan in their main offices as
well as in each school. In addition, the plans are to be made
available to the public for review.

                           The “Rule” requires a three-year
 Reinspect Schools         reinspection of each school by a
 Every Three Years         certified inspector, and the
                           inclusion of the inspection results
                           into the asbestos management
plan. Also, the school districts are to perform surveillance
every six months thereafter, of any school building found to
contain asbestos. Although the person conducting such
surveillance does not have to be an accredited inspector, this


                   3

                                         Report No. 2000-P-00024
individual should be familiar with the school building in
order to accurately report any changes in the condition of the
asbestos, and to include this information in the asbestos
management plan.

                 It is EPA’s role to determine if the Local
EPA’s Role
                 Education Agencies comply with AHERA
                 and to take enforcement action if needed.

Since 1995, EPA has considered the environmental health
risks of children in all risk assessments, risk
characterizations, and public health standards set for the
United States. In September 1996, the Administrator of EPA
announced a national agenda to protect children’s health
from environmental threats.

In April 1997, the President signed an Executive Order
requiring all Federal agencies to: (1) assign a high priority to
addressing health and safety risks to children; (2) coordinate
research priorities on children’s health; and, (3) ensure that
their standards take into account special risks to children.

In May 1997, the Administrator of EPA established the
Office of Children’s Health Protection, whose mission is to
make the protection of children’s health a fundamental goal
of public health, and to facilitate EPA efforts to protect
children from environmental threats.

In March 1998, Region III established a project to increase
the number of inspections of school asbestos management
plans and abatement activities at schools. Some of the
specific goals listed in the Waste & Chemicals Management
Division’s 1999-2000 Implementation Plan were to:

-     Increase compliance monitoring of schools to ensure
      compliance with AHERA regulations to minimize risk
      of asbestos exposure to children and workers in
      schools.

-     Improve public awareness of asbestos hazards in
      schools by monitoring compliance with public
      notification requirements of AHERA school asbestos
      management plans.


                   4

                                          Report No. 2000-P-00024
                  -     Implement an outreach program to facilitate
                        compliance.

                  -     Conduct at least 50 percent of compliance inspections
                        at high risk or disproportionately exposed
                        communities and other priority areas of non-
                        compliance.


Noteworthy        We believe that Region III has performed commendably,
Accomplishments   considering the limited number of people assigned to
                  inspecting schools. This is why we recommended that the
                  Region consider increasing the number of people it has
                  inspecting schools.


Scope and         We performed this audit according to the Government
Methodology       Auditing Standards (1994 Revision) issued by the
                  Comptroller General of the United States as they apply to
                  program audits. The audit included tests of program records
                  and other auditing procedures we considered necessary.

                  We began our review with a survey on March 9, 1999. As a
                  result of the survey, we began an in-depth review on
                  December 1, 1999. Because of personnel constraints, this
                  review was suspended several times between March 1999
                  and September 1999. We completed our audit fieldwork on
                  April 18, 2000.

                  Documents reviewed included: the Asbestos Hazard
                  Emergency Response Act and corresponding Federal
                  regulations found in 40 CFR 763 entitled Asbestos-
                  Containing Materials in Schools; asbestos compliance
                  inspection reports and enforcement documents issued by
                  Region III; grant agreements issued for fiscal years 1996
                  through 1999 to the Maryland Department of the
                  Environment and to the West Virginia Department of Health
                  and Human Resources; and, asbestos compliance inspection
                  reports completed by these two State Agencies.

                  We also verified that compliance and enforcement data was
                  maintained in a national database; however, we did not
                  review the internal controls associated with the input and

                                    5

                                                         Report No. 2000-P-00024
              processing of information into the database. Review of the
              Region’s fiscal years 1997 through 1999 Assurance Letters,
              prepared under the Federal Manager’s Integrity Act, noted
              no weaknesses pertaining to the issues raised in this audit.

              We conducted our fieldwork in EPA Region III and at the
              Maryland Department of the Environment. For Region III,
              we randomly selected for review 98 of the 201 inspections
              conducted by regional inspectors for fiscal years 1997
              through 1999, including 38 inspections with violations and
              60 inspections with no violations. The bulk of these
              inspections were of schools in the District of Columbia. For
              Maryland, we reviewed 120 of the 127 inspections conducted
              by State inspectors during fiscal years 1996 through 1999.
              For West Virginia, we reviewed the 79 inspections conducted
              by State inspectors during fiscal year 1999.

              For simplicity purposes, we refer to the District of Columbia
              as a “State,” because under AHERA, it has the same
              responsibilities, and is subject to the same requirements as a
              State.

              We issued the draft report on June 15, 2000. We received
              responses from Region III on July 25, 2000, and the Office of
              Enforcement and Compliance Assurance on July 26, 2000.
              For the most part, they agreed with our recommendations.
              The responses and our evaluation are summarized at the end
              of Chapters 2 through 4, and are provided in their entirety in
              Appendices 1 and 2. We held an exit conference with
              Region III on September 13, 2000, and with the Office of
              Enforcement and Compliance Assurance on September 20,
              2000.


Prior Audit   There has been no prior OIG audit coverage in this area.
Coverage




                                 6

                                                      Report No. 2000-P-00024
                  CHAPTER 2
REGION III NEEDS TO INCREASE INSPECTIONS


        At current staffing levels, the Region is unable to perform an
        adequate number of asbestos compliance inspections. For the
        most part, the Region inspects only an infinitesimal number
        of schools because it can only respond to tips and complaints
        it receives about possible asbestos problems in schools. This
        situation arose, in part, because the number of Region III
        inspectors has decreased over the past two years.
        Specifically, the funding for Senior Environmental Employees
        who perform inspections under the Toxic Substances Control
        Act was reduced from $157,000 in fiscal year 1998 to $57,000
        in fiscal year 2000. Thus, the amount of money actually
        available for AHERA inspections is substantially less. As a
        result, the Region is unable to provide the coverage necessary
        to assure that school districts are complying with AHERA,
        which in turn places school children and school employees at
        risk. Moreover, at the time of our audit, EPA Headquarters
        was suggesting a “disinvestment” from the Agency’s asbestos
        inspection program.

        We believe that Region III should consider expanding rather
        than curtailing this program. Accordingly, in partnership
        with regional personnel, we designed a core minimum
        asbestos program, i.e., we determined the minimum number
        of inspectors required to maintain a viable inspection
        presence within the Region.

                                       The AHERA Law requires
         AHERA Requirements
                                       school districts to perform a
                                       variety of tasks regarding the
                                       detection of asbestos. EPA’s
        enforcement responsibilities require that the Agency monitor
        to ensure that school districts are actually performing these
        tasks. In Region III, a large part of this monitoring is to be
        accomplished via asbestos compliance inspections, i.e., an
        inspector visits schools to verify that they are complying with
        the Law. For the States of Maryland and West Virginia, such


                           7

                                                Report No. 2000-P-00024
                   inspections are performed by State agencies funded by EPA
                  grants. For the District of Columbia, Pennsylvania,
                  Delaware, and Virginia, the inspections are performed by
                  EPA.

                                    Some educators lack knowledge about the
                     Need for       hazards of asbestos. As will be explained in
                    Education       Chapter 3 of this report, the current levels of
                                    personnel assigned to the asbestos program
                                    affects the Region’s ability to make newly
                  created “charter schools” aware of these hazards.

                  Inspections are important because we also noted one case
                  where a School District evidently ignored asbestos hazards.
                  In 1996, about 12,239 square feet of damaged asbestos floor
                  tile was removed from a school building and disposed of by
                  school employees, school students, and other volunteers. As a
                  result of a referral from EPA’s Criminal Investigation
                  Division, in 1997, Region III conducted several inspections of
                  the school and determined that: (1) the School District failed
                  to maintain adequate asbestos management plans for three of
                  its schools; and, (2) asbestos had been removed and disposed
                  of without the proper safety precautions being taken. In a
                  newspaper article following the inspections, the
                  superintendent of the School District was quoted as stating:
                  “This is a big joke. They can suck on asbestos the rest of their
                  lives and never get cancer ....” In 1998, the superintendent
                  was indicted in Federal District Court and later, after a jury
                  trial, was found guilty of failing to follow procedures for
                  properly removing and disposing of asbestos-containing
                  material. In February 1999, Region III issued a Complaint
                  against the School District for Worker Protection and AHERA
                  violations. This Complaint was settled in July 1999, with the
                  School District paying a cash penalty and agreeing to correct
                  the violations.


District of       The asbestos problems of the District of Columbia Public
Columbia Public   Schools (DCPS) perhaps best support the need to increase
Schools           EPA’s compliance inspection coverage. This School District,
                  which includes 175 schools, had been last inspected for
                  asbestos hazards in 1994 by a contractor. In September



                                     8

                                                           Report No. 2000-P-00024
1998, students refused to attend a high school that was
undergoing asbestos abatement activities. After inspecting
the building, the Region III inspector concluded that the
abatement action was proper. However, the inspector also
noted that the school was out of compliance because it lacked
any of the AHERA-required documentation, including an
asbestos management plan.

Upon learning that DCPS’s main office also did not have
copies of the documents required by AHERA, the Region III
inspector expanded the inspection to include all 175 of the
schools within the School District. As a result, the Region
determined that none of the 175 schools had any of the
documentation required by the Law, i.e., asbestos
management plans, training records, response action
records, reinspection records, and records of periodic
surveillance.

According to DCPS officials, the asbestos management plans
at the schools disappeared during a dispute between the
School District and the contractor hired in 1994 to conduct
the inspections. Moreover, the officials explained that the
copies of the documents stored in the main office were
destroyed after having been contaminated by asbestos.

                         In acknowledgment of the serious
 School Closures
                         nature of the violations, DCPS funded
                         the U.S. Army Corps of Engineers
                         (USACE) with $2 million to hire
contractors to inspect its schools for asbestos and to develop
asbestos management plans. These inspections showed that
many of the schools had “major asbestos fiber releases”
requiring over $5 million to remediate. A major fiber release
is the dislodging of more than 3 square or linear feet of
friable asbestos; the inspectors of the DC schools found that
some schools had thousands of feet of friable asbestos
dislodged. Consequently, 55 of the 175 schools were
partially or fully closed during the Summer and/or Fall of
1999. In addition, DCPS employees worked with asbestos-
containing building materials without proper training and
personal protection equipment, a violation of EPA’s Worker
Protection Standards.



                   9

                                        Report No. 2000-P-00024
                                To further complicate matters, the
              Inadequate        Region III inspector concluded that a
              Inspections       contractor hired by USACE performed
                                numerous inadequate inspections. When
                                the Region III inspector reinspected one of
             the schools, he found that significant areas of the school had
             been omitted. The inspector also learned that significant
             areas had been improperly defined, thus resulting in invalid
             sampling and assessments. A further evaluation by the
             USACE indicated other inspections with similar problems.
             This discovery necessitated reinspecting all the schools
             inspected by three of the seven contractor inspection teams.

                                    Region III notified the Department of
             Status of DCPS
                                    Justice that EPA would be referring a
                                    multi-million dollar case to that
                                    Agency for enforcement. As of
             December 1999, EPA and DCPS were negotiating a Consent
             Decree to stipulate the size of penalties for any future
             violations. Also, the Region planned to issue a Complaint
             against the contractor who had conducted the inadequate
             inspections.


Region III   According to the 1998-1999 Quality Education Data Guide,
Program      there are 10,609 schools with 5,282,650 students and
             teachers within Region III. Regional personnel affiliated
             with the asbestos program can be called upon to perform a
             variety of tasks under various laws and regulations. For
             instance, under the Toxic Substances Control Act (TSCA),
             they can respond to complaints pertaining to three sections:
             AHERA, the Asbestos School Hazardous Abatement
             Reauthorization Act, and the Worker Protection Rule. Under
             the Clean Air Act, they focus on inspections of asbestos
             abatement actions under the National Emissions Standards
             for Hazardous Air Pollutants (NESHAP). And, under
             normal circumstances, most NESHAP activities are also
             regulated by one of the three TSCA sections. Consequently,
             the renovation of a school by public school employees would
             fall under all of the above. Moreover, in addition to
             conducting the various types of inspections, regional asbestos
             personnel provide compliance assistance to the schools, and
             help develop enforcement cases when violations warrant
             doing so.

                               10

                                                     Report No. 2000-P-00024
                                            During fiscal year 1999, the AHERA and
                            Inspection      NESHAP asbestos inspections for the
                            Resources       District of Columbia, Pennsylvania,
                                            Delaware, and Virginia were performed by
                                            two EPA employees and by two Senior
                           Environmental Employment Program1 employees. There are
                           7,684 schools with 3,910,471 students and teachers within
                           these four States. Under normal circumstances, the
                           inspectors conduct approximately a total of 35 inspections a
                           year, the bulk of which arise from tips or complaints reported
                           to EPA.

                           The AHERA inspections for the remaining States within
                           Region III, Maryland and West Virginia, were performed by
                           State inspectors under grant agreements with EPA. There
                           are 2,925 schools with 1,372,179 students and teachers
                           within these two States. During fiscal year 1999, Maryland
                           conducted 26 compliance inspections, for which EPA paid
                           $103,730, and West Virginia conducted 79 inspections (plus
                           13 Worker Protection inspections) for which it received
                           $124,570. Although the two States initiated some of these
                           inspections because of tips or complaints, many of them were
                           also “neutral” in origin, meaning the schools were randomly
                           selected for inspection.

                           Sixty-five percent of the Maryland schools inspected, and 33
                           percent of the West Virginia schools inspected, were in
                           violation of AHERA. However, Region III was unaware of
                           this situation because neither State reported any violations,
                           because the States’ inspectors assisted the schools to remedy
                           said violations. As commendable as this may be, it
                           understated the problems found, as well as the
                           accomplishments of the compliance inspections. (Chapter 4
                           of this report provides more details concerning the under-
                           reporting of violations.)

                           While it appears that EPA will continue to fund the two
                           State grants, the resources available to the Region itself
                           have diminished. As recently as April 1998, there were four
                           Federal employees and four Senior Environmental

1
  The Senior Environmental Employment Program was created by EPA to give workers 55 and older an
opportunity to use their skills, in this case, conducting asbestos inspections in schools.


                                                 11

                                                                            Report No. 2000-P-00024
                   Employment Program (SEE) employees working in the
                   asbestos program. These employees were funded under
                   TSCA and the Clean Air Act. However, one year later this
                   level had dropped to two Federal and two SEE employees.
                   Moreover, the TSCA funding of the SEE program has been
                   drastically reduced, both nationwide and within the Region,
                   from fiscal year 1998 to fiscal year 2000. Specifically, SEE
                   funding for TSCA inspections was cut from $1.4 million to
                   $500,000 overall, and from $157,000 to $57,000 for
                   Region III. Thus, the amount of money actually available for
                   AHERA inspections is substantially less. As a result of the
                   decrease in Federal inspectors and the $100,000 cut in SEE
                   funding, the Region’s ability to adequately respond to tips
                   and complaints, to provide compliance assistance, and to
                   initiate outreach activities has considerably lessened.
                   Moreover, the oversight and management of the two State
                   asbestos grants, as well as the development of asbestos
                   enforcement cases, is now being handled by personnel on
                   loan from the Pesticides Program.


Disinvestment of   In May 1999, EPA’s Office of Enforcement and Compliance
Small Federal      Assurance proposed disinvesting resources from four small
Programs           Federal programs, one of which was the AHERA program.
                   OECA recognized that:

                         Small programs are vital to the Agency’s
                         mission. They address a huge regulated
                         community that presents real environmental
                         problems, including at times substantial risks.
                         In many cases, the federal government provides
                         the only enforcement presence as there are no
                         authorized state programs.

                         These programs have very few resources to cope
                         with the enormous universe of regulated
                         entities and transactions they are responsible
                         for. In some cases, the programs are virtually
                         on life support and we have ceased to have any
                         real presence.




                                    12

                                                          Report No. 2000-P-00024
               However, in light of budget restrictions OECA considered
               whether it should obtain economies of scale by consolidating
               programs and selectively increasing investment in areas
               presenting high risk and high noncompliance. After a series
               of meetings, issue papers, and comments by the Regions, in
               November 1999, OECA issued a memorandum announcing
               its decision regarding compliance and enforcement resources
               for the small Federal programs. This decision, to be phased
               in over fiscal year 2000 and fully implemented by fiscal year
               2001, would allow each Region to propose resource shifts
               between national priorities and small programs depending
               on its specific and unique circumstances. Such shifts would
               have to be negotiated and agreed upon with OECA. If a
               Region chooses to disinvest in a particular program, the
               Region is still required to maintain a core program including
               activities to determine compliance problems and to develop
               strategic approaches to solving those problems. However, we
               believe that the Region III environmental situation justifies
               investing rather than disinvesting in AHERA.


Core Minimum   In consultation with Region III personnel, we developed two
Program        options for maintaining a core minimum program, i.e., the
               minimum number of personnel necessary to run a viable
               asbestos program.

                               This option entails restoring the program to
                Option 1
                               its April 1998 level, i.e., four Federal and four
                               SEE employees. Adopting this option would
                               allow the Region to improve inspection
               coverage to the four States — Delaware, Pennsylvania,
               Virginia, and the District of Columbia, that are within its
               purview.

                                This option uses the logic that if Region III
                 Option 2       devoted the same resources to the other four
                                States as is devoted to Maryland and West
                                Virginia, it could afford to increase its
               inspections, enforcement capacity, and outreach services. For
               example, in fiscal year 1999, EPA spent an average of
               $114,150 each for Maryland and West Virginia grants. If the
               Agency devoted similar resources to the four other States, the



                                  13

                                                         Report No. 2000-P-00024
                 Region could afford the services of two additional SEE
                 employees per State.


Conclusion       It appears that the EPA grants provided to Maryland and
                 West Virginia afford those States better asbestos inspection
                 programs than that of Region III’s, which is “bare bones.” The
                 Region can basically only respond to emergencies, rather than
                 conduct compliance inspections in Delaware, Pennsylvania,
                 Virginia, and the District of Columbia. The Region is also
                 challenged to take enforcement actions, which only EPA can
                 do, as enforcement cannot be delegated to the States. This
                 situation arose, in part, because the number of inspectors has
                 decreased. As a result, school children and employees are at
                 risk. For example, the District of Columbia was unaware that
                 major fiber releases had occurred, and that students and
                 employees may have been needlessly exposed to an
                 environmental hazard in the five years since the schools had
                 been last inspected. Accordingly, we believe that Region III
                 should consider expanding rather than curtailing this
                 program.


Recommendation   2.1   We recommend that the Region III Administrator
                       devote the resources necessary to operate a viable
                       asbestos inspection, outreach, and enforcement
                       program. This could be accomplished by adopting the
                       options we developed in partnership with regional
                       personnel, or by developing some other alternative.

                       Option 1 - Entails restoring the program to its April
                       1998 resource level (four Federal and four SEE
                       employees). Adoption of this option would allow the
                       Region to improve inspection coverage to the four states
                       that are within its purview.

                       Option 2 - Uses the logic that if the Region devoted the
                       same resources to the four States within its purview as
                       is devoted to Maryland and West Virginia, it could
                       afford to increase its inspections, enforcement capacity,
                       and outreach services. For example, in fiscal year
                       1999, EPA spent an average of $114,150 each for



                                   14

                                                         Report No. 2000-P-00024
                         Maryland and West Virginia grants. If the Agency
                         devoted similar resources on the four other States, the
                         Region could afford the services of two additional SEE
                         employees per State.

Region III’s       In its response, Region III initially agreed with our
Response           recommendation and advised that it is in the process of
                   requesting additional inspector resources for this important
                   program from the existing regional inspector pool. However,
                   during the exit conference, regional officials advised that the
                   AHERA program will not receive additional inspector
                   resources. Instead, an inspector from another TSCA program
                   will also be conducting asbestos inspections.

OIG’s Evaluation   The Region’s response is noted. At a future date, we will
                   perform a follow-up review to determine the adequacy of the
                   corrective action. No further response to this report is
                   necessary.




                                     15

                                                           Report No. 2000-P-00024
[This page was intentionally left blank.]




                   16

                                            Report No. 2000-P-00024
                      CHAPTER 3

EPA MUST INFORM CHARTER SCHOOLS ABOUT ASBESTOS


            AHERA applies to all public and non-profit private schools,
            kindergarten through grade 12. However, as of April 2000,
            EPA has had very limited contact with “charter schools,”
            apparently because of resource constraints. As a result, an
            unknown but possibly large percentage of the 1,605 charter
            schools attended by 250,000 students nationwide have never
            been inspected for asbestos. This lack of inspections is a
            consequence of the schools not knowing they are mandated by
            AHERA to do so. The lack of knowledge occurred in part
            because EPA did not inform the schools of this mandate.
            Consequently, school students and employees may be
            unknowingly exposed to the dangers of asbestos. We
            recommend that the Agency inform the schools in the most
            expedient manner possible. We also recommend that EPA
            develop a strategy to ensure that the charter schools adhere
            to the Law, as EPA is the only Agency, Federal or State, with
            such enforcement authority.

                                     Charter schools are public schools
                History of           that come into existence through a
              Charter Schools        contract with either a State agency or
                                     a local school board. This charter, or
                                     contract, establishes the framework
            within which the school operates and provides public support
            for the school for a specified period of time. But unlike
            traditional school systems, charter schools are obligated to
            obtain their own school buildings.

            A charter gives a charter school autonomy over its operation
            and frees it from some regulations that other public schools
            must follow. In exchange for this flexibility, the charter
            schools are held accountable for achieving specific goals, such
            as improving student performance. However, this flexibility
            does not exempt charter schools from complying with AHERA.
            Thus, by Law, all charter schools must:



                              17

                                                     Report No. 2000-P-00024
-          Inspect school buildings for asbestos-containing
           materials;

-          Develop, implement, and update asbestos management
           plans; and,

-          Take appropriate response actions to remedy any
           asbestos-related problems.

Charter schools have spread rapidly since the first one opened
in 1992. According to a report funded by the U.S.
Department of Education issued in January 2000:

-          There were more than 1,600 charter schools in
           operation, 421 of which opened in 1999.

-          These schools taught 250,000 students in the 1998-
           1999 school year.

-          During 1999, three States passed charter legislation,
           bringing the total number of jurisdictions with charter
           laws to 37 States, including the District of Columbia.


                Estimated Number of Operational Charter Schools,
                                     by Year
 1800
 1600
 1400
 1200
 1000
    800
    600
    400
    200
      0
          1992-93   1993-94   1994-95    1995-96     1996-97     1997-98   1998-99   Sept. 1999

                               Source: U.S. Department of Education,
                                 The State of Charter Schools 2000



The number of students in charter schools increased in the
1998-99 school year by 90,000, bringing the total to more than
250,000 students. According to the Charter Friends National
Network web site, the number of students attending charter
schools will rise to 350,000 by the Fall of 2000.


                              18

                                                                  Report No. 2000-P-00024
                    Since 1994, the U.S. Department of
    Lack of         Education has provided grants to support
  Information       charter schools. In fiscal year 1995, such
                    grants amounted to $6 million. In fiscal
                    year 1999, the grants reached $100
million. However, despite these expenditures, the topic of
asbestos in charter schools has been basically ignored. In a
review of various web sites, we found only one instance
(Florida Department of Education) where this issue was
addressed. On the other hand, there was no mention of
asbestos or AHERA on the internet web sites for the U.S.
Department of Education, the U.S. Charter Schools, or the
National Parent and Teacher Association.

                          In fiscal year 1999, Region III
 Violations Found at      inspected 23 charter schools, all of
  Charter Schools         which were in violation of AHERA.
                          Three of these schools are located in
                          the building complex that also
houses EPA Headquarters offices in Washington, DC.
However, due to a shortage of inspectors, Region III is
currently unable to inspect any additional charter schools.
Also, the Region does not provide “outreach” to charter
schools to make them aware of their responsibilities under
AHERA and the dangers of asbestos. Moreover, according to
regional personnel, such schools are unlikely to be aware of
these obligations, because none of the applications used to
obtain their charters even mention asbestos.

In order to determine the status of EPA’s contact with charter
schools nationwide, we sent a questionnaire to the Regional
Asbestos Coordinators (RACs) in the other nine Regions. The
responses we received are as follows:




                  19

                                        Report No. 2000-P-00024
REGION                              RESPONSE

  I      Although the Region has had no contact with charter schools, the
         state agencies in Connecticut, Massachusetts and Rhode Island
         are aware of these schools, and have conducted outreach efforts
         and inspections. State agencies in Connecticut and Rhode Island
         work with their State Department of Education in identifying
         charter schools and advising them about AHERA. Results of
         inspections conducted by State personnel in Massachusetts
         indicates a pattern of noncompliance. Most of the schools failed
         to: appoint a designated person, train the designated person,
         provide annual notification, include a signed statement of the
         designated person, conduct six-month surveillance, post warning
         labels, and provide training to custodial and maintenance staff.

  II     The Region has had no contact with any charter schools to date.
         But the Region suspects that there are problems. Although
         aware of the number of schools in New Jersey, the Region does
         not yet know the number of charter schools in New York. The
         New Jersey schools were inspected by the State, funded by an
         EPA grant. None of the New Jersey schools submitted
         management plans. The State will refer these schools to Region
         II for enforcement action. Region II personnel will inspect a
         small number of New York charter schools and notify the
         remainder of the schools that they are subject to AHERA.

  IV     The RAC was aware of the number of charter schools in the
         Region and has inspected a number of them in Florida and
         Georgia. Overall, the charter schools in Region IV are very much
         aware of the AHERA requirements, and do not show a pattern of
         non-compliance.

  V      The RAC was aware of the charter schools in the Region, and over
         the last two years, special efforts have been taken to advise
         charter schools of AHERA requirements. Region V performed a
         general mailing to the State Educational Associations which
         represent the charter schools. However, problems still exist; 7 of
         the 9 charter schools inspected in Minnesota and Michigan after
         the general mailing had no asbestos program, while the programs
         of the 2 other schools were deficient.

  VI     The RAC was unaware of the number of charter schools within
         the Region, but believed that the Region had processed some
         enforcement actions in this area. He also believed that charter
         schools were unaware of AHERA requirements and deemed their
         non-compliance as a problem.

 VII     No response received

 VIII    No response received

  IX     The Region has done little to date regarding charter schools, but
         plans on inspecting a number of schools before the end of this
         fiscal year.

  X      The Region has had little experience with charter schools.




                   20

                                                Report No. 2000-P-00024
Conclusion         The number of charter schools is growing at a rapid pace.
                   Charter schools fall under AHERA, whose enforcement
                   belongs to EPA and to EPA alone. By and large, most charter
                   schools are unaware of their responsibilities to inspect for
                   asbestos. The lack of knowledge occurred in part because
                   EPA did not inform the schools of this obligation. As a result,
                   students and employees within these schools may be
                   unwittingly exposed to asbestos hazards.


Recommendations We recommend that the Assistant Administrator for
                Enforcement and Compliance Assurance:

                   3.1   Notify all charter schools of AHERA mandates. This
                         could be accomplished by contacting the U.S.
                         Department of Education and the National Parent and
                         Teacher Association, which in turn could disseminate
                         AHERA information over their internet web sites.
                         Through its own web site, EPA could also disseminate
                         AHERA information aimed specifically at charter
                         schools. Another option OECA could consider is to
                         award grants to provide outreach activities to charter
                         schools.

                   3.2   Develop a strategy to ensure that the charter schools
                         comply with AHERA.

OECA’s Response    OECA agreed with recommendation 3.1, and advised it is
                   willing to work with the U.S. Department of Education, State
                   Education Associations, the National Parent and Teacher
                   Association and other groups to disseminate AHERA
                   information, particularly aimed at charter schools. With
                   respect to recommendation 3.2., due to severe budget
                   constraints facing EPA’s compliance monitoring and
                   enforcement programs, OECA will not direct the Regions to
                   invest additional resources in compliance assistance or
                   monitoring in the AHERA program. During the exit
                   conference, OECA advised that it will notify the Regions to
                   include charter schools in the universe of schools inspected.




                                     21

                                                           Report No. 2000-P-00024
OIG’s Evaluation   OECA’s agreement to disseminate information regarding
                   AHERA requirements is a good step. While we recognize that
                   the Agency has budget constraints, we believe that OECA
                   should, at a minimum, advise the Regions to include charter
                   schools in their current compliance and monitoring strategies.
                   OECA agreed to do so. In response to this report, OECA
                   should provide milestone dates for corrective actions planned
                   or taken. At a future date, we will perform a follow-up review
                   to determine the adequacy of the corrective actions.

Region III’s       Although the recommendations are addressed to the
Response           Assistant Administrator for Enforcement and Compliance
                   Assurance, Region III agrees that greater levels of compliance
                   assurance should take place with regards to the AHERA
                   program and is already in the process of providing such to
                   charter schools and non-profit private schools. Region III will
                   send a letter to each public school district and every charter
                   and non-profit private school that can be identified to provide
                   information on how they can comply with the AHERA
                   requirements, and a strategy to ensure compliance will be
                   implemented.

OIG’s Evaluation   We commend Region III for its efforts in notifying charter and
                   non-profit private schools about AHERA mandates and for
                   attempting to ensure that these schools comply.




                                     22

                                                           Report No. 2000-P-00024
                  CHAPTER 4

EFFECTIVENESS OF INSPECTIONS UNDERSTATED


        Region III needs to improve its oversight of the TSCA grants
        awarded to Maryland and West Virginia. As mentioned
        previously in Chapter 2, State inspectors found violations
        and assisted schools to return to compliance with AHERA,
        but never reported into the Region’s tracking system that
        violations occurred. Although providing compliance
        assistance may be praiseworthy, the lack of notification on
        violations identified understates the value of the inspections.
        By not informing the Region of violations, Maryland and
        West Virginia have inadvertently misled EPA into believing
        that no violations ever existed, when in fact they did.
        Lacking any evidence to the contrary, EPA could logically
        conclude that it should “disinvest” from funding these
        inspections, because the States never report any violations.

        The grant agreements with both Maryland and West Virginia
        required the States to notify the Region of any violations
        found as soon as possible after the inspection, but in all
        cases, prior to the end of each quarter in which the inspection
        takes place. The grant agreements specified two methods of
        notification: (1) completion of forms for the Region’s tracking
        system; and, (2) submission of inspection reports. Such data
        is important because EPA can use it to make decisions such
        as where to use resources and where to target areas for
        enforcement.

        We found that 78 of the 120 inspections conducted by
        Maryland during fiscal years 1996 through 1999 detected
        violations, the majority of which were for schools failing to:
        (1) inspect their buildings for asbestos; (2) maintain asbestos
        management plans; or, (3) conduct followup inspections every
        three years. However, Region III was unaware that these
        violations ever existed.




                           23

                                                 Report No. 2000-P-00024
A similar review of the 79 inspections conducted by West
Virginia during fiscal year 1999 disclosed that 26 schools had
violations (albeit mostly of a less serious “record keeping”
nature), yet the Region was unaware of these violations.
Further, there were a few instances where West Virginia
took informal enforcement action for serious violations such
as failing to use an accredited person to remove asbestos.
Although West Virginia advised the Region of these informal
actions, the data was not in the tracking system.

The violations identified by both States, particularly
Maryland, are considered crucial to managing asbestos in
schools. The Region should be aware of these violations
because EPA is the only authority that can take formal
enforcement action. Our review shows that the Region has
been unaware of these violations for as long as five years.
Furthermore, Region III staff advised us that some of the
violations it had identified also went unrecorded because,
like the States, the Region also provided compliance
assistance to schools. The lack of knowledge about violations
identified in Maryland and West Virginia, as well as its own
unrecorded violations, places the Region at a disadvantage
and thus a logical candidate for disinvestment from the
AHERA program.

In summary, violation data on the AHERA program is
deceptive. Lacking any evidence to the contrary, EPA
assumes the AHERA programs in Maryland and West
Virginia are experiencing a high compliance rate, when in
fact there are numerous violations. Moreover, Region III has
also understated the violations it discovered. As a result, the
Region’s AHERA program inaccurately portrays a zero non-
compliance rate for both States, rather than the actual non-
compliance rates of 65 percent for Maryland and 33 percent
for West Virginia.

We also found that neither State submitted inspection
reports as per instructions received from Region III in 1995.
Regional personnel informed us that they made this decision
because they lacked staff to review and store the reports. In
acknowledgment of resource constraints, we suggested that
the Region delete the inspection report requirement from the
two grants. The Region agreed with this suggestion and


                  24

                                         Report No. 2000-P-00024
                   deleted the inspection report requirement for fiscal year
                   2000. Instead, it plans to review a sample of inspection
                   reports twice a year at each State. However, we believe that
                   the Region must still record all violations detected by any
                   inspection in its tracking system.


Recommendation     4.1   We recommend that the Region III Administrator
                         ensure that any violation detected by either the Region
                         or by the States is recorded in the Region’s tracking
                         system.

Region III’s       The Region agreed that it needs to have accurate data to
Response           reflect the Region’s compliance rates, and has taken
                   corrective measures to ensure this. The recommendation will
                   be implemented immediately.

OIG’s Evaluation   Region III’s response meets the intent of our
                   recommendation. At a future date, we will perform a follow-
                   up review to determine the adequacy of the corrective action.
                   No further response to this report is necessary.




                                     25

                                                           Report No. 2000-P-00024
[This page was intentionally left blank.]




                   26

                                            Report No. 2000-P-00024
            APPENDIX 1

Region III’s Response to Draft Report




                 27

                                    Report No. 2000-P-00024
[This page was intentionally left blank.]




                   28

                                            Report No. 2000-P-00024
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    REGION III
                                 1650 Arch Street
                      Philadelphia, Pennsylvania 19103-2029

                                                                                      July 21, 2000

SUBJECT:       Response to Draft Audit Report of Region III's Children's
               Health Initiative on the Asbestos Hazard Emergency Act
               (AHERA)

FROM:          Bradley M. Campbell, Regional Administrator
               Office of the Regional Administrator (3RA00)

TO:            Carl A. Jannetti, Divisional Inspector General for Audit
               Office of Inspector General (3AI00)

       Thank you for the opportunity to comment on the Draft Audit Report of Region III's
Children's Health Initiative on the Asbestos Hazard Emergency Act (AHERA). The objectives of
your audit were to determine the:

       1.      status of the Region III Children's Health Initiative on the AHERA inspection
               program;

       2.      adequacy of EPA's stewardship over the various State inspection programs within
               Region III; and

       3.      human resources necessary to maintain a viable AHERA inspection program.

        The Draft Report makes four recommendations, two which require a Regional response
(Chapter 2 and 4) and two which require a response from the Assistant Administrator for
Enforcement and Compliance Assurance (Chapter 3) since the latter concern your recommendations
for national program direction. In addition to any response at the national level, I will share with
you the Region's plans to notify charter schools in Region III about AHERA mandates and share
the Region's strategy to ensure compliance. Our comments are as follows:

Recommendation 2.1:

               The Draft Report recommends that the Region devote the resources necessary to
               operate a viable asbestos inspection, outreach and enforcement program.

Regional
Response:      The Draft Report accurately states that Region III's extramural funds used to fund
               Senior Environmental Employees in WCMD's Toxics Enforcement Programs have
               decreased from $157,000 in FY 1998 to $57,000 in FY 2000, thereby reducing the
               Region's inspection capability in AHERA to merely responding to tips and/or
               complaints. However, the Draft Report incorrectly concludes that all of those


                               Customer Service Hotline: 1-800-438-2474
      funds are available to the AHERA program. In fact, those funds are compliance
      monitoring/toxics funds, which are allocated to be used for a variety of programs: asbestos
      (AHERA), PCBs, and Toxics (including EPCRA). Therefore, the amount of money
      actually available for AHERA is substantially less than the Draft Report indicates.

      Moreover, in light of the finite nature of these funds, if the Region were to increase the total
      resources dedicated to the TSCA AHERA program as the report recommends, there would
      have to be corresponding decreases in other Region III Enforcement programs.

      While we agree that more resources would benefit this important program we are also
      cognizant of the fact that all of our "small programs" are clearly directed at protecting
      public health and the environment. Both FTE and contract dollars to support Senior
      Environmental Employees have been declining in recent years as you note in your report.
      It should also be noted that our present aggregate allocation to the AHERA and CAA
      Asbestos programs is approximately 3.8 Federal FTE (includes management overhead) and
      2.2 SEE employees. These Federal FTE Staffing levels actually slightly exceed our historical
      Federal allocations for the two asbestos programs. The real decrease has been in the ability
      to maintain our SEE inspector core because of drastically reduced contract
      funds. We would also like to point out that WCMD is in the process of requesting
      additional inspector resources for this important program from the existing Regional
      inspector pool.

Recommendation 3.1

             EPA Headquarters should notify all Charter schools of AHERA mandates.


Recommendation 3.2

             EPA should develop a strategy to ensure that the Charter schools comply with
             AHERA

Regional
Response:    While these recommendations are addressed to the Assistant Administrator for
             Enforcement and Compliance Assurance who will provide a response for the
             national program, the Region agrees that greater levels of compliance assurance
             activities should take place with regards to the AHERA program and is already in
             the process of providing such. Increased compliance assistance will ensure that
             schools, particularly charter or non-profit private schools, are aware of the
             regulatory requirements with which they must comply. To this end, WCMD will
             send a letter to each public school district and every charter and non-profit private
             school that can be identified to provide information on how they can comply with
             the AHERA requirements and a strategy to ensure compliance will be implemented
             [Schools in the State of Delaware will receive this letter by the end of FY 2000;
             schools in all other Region III states will receive a letter in FY 2001]. We believe
             that this outreach is necessary and will have a positive impact on the compliance
             rates at schools. However, it must be understood that fewer inspections and
             enforcement actions may result because the overall resource level provided to the
             Region by EPA headquarters for AHERA compliance and enforcement has not
             increased and could be subject to further disinvestments.
Recommendation 4.1

            The Draft Report recommends that the Region ensure that any violation detected by
            either the Region or by the States is recorded in the Region's tracking system.

Regional
Response:   The Region agrees that it needs to have accurate data to reflect the Region's
            compliance rates. The Region will reinforce this issue with the States of Maryland
            and West Virginia (the only two States with whom the Region has grant
            agreements) and will reinstate the requirement that these States submit FTTS forms
            for each inspection conducted as well as provide additional guidance to the States
            on how they should document compliance monitoring and compliance assistance
            activities. The Region will also examine the data input process for violations found
            by the Region to ensure the violations are properly recorded. This recommendation
            will be implemented immediately.

Cc:   James J. Burke (3WC00)
      James N. Webb (3WC30)
      Harry T. Daw (3WC32)
      John Bocelli (3PM70)
[This page was intentionally left blank.]
         APPENDIX 2

OECA’s Response to Draft Report




             33

                                  Report No. 2000-P-00024
[This page was intentionally left blank.]




                  34

                                        Report No. 2000-P-00024
                             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C. 20460

                                                                                                    OFFICE OF
                                                                                                 ENFORCEMENT AND
                                                                                              COMPLIANCE ASSURANCE
                                                  July 24, 2000

MEMORANDUM

SUBJECT:          OECA Response to Draft IG Report on Region III's Children's Health Initiative
                  on the Asbestos Hazard Emergency Response Act (AHERA)

FROM:             Steven A. Herman
                  Assistant Administrator

TO:               Carl A. Jannetti, Divisional Inspector General for Audit
                  Mid-Atlantic Division

         Thank you for offering the opportunity to review and comment on the Office of the
Inspector General's (OIG) draft audit report regarding EPA Region III's Children's Health
Initiative on the Asbestos Hazard Emergency Response Act (AHERA). With only a few
exceptions, OECA agrees with the draft report's findings. The draft report makes two
recommendations for OECA response: to notify all charter schools of AHERA mandates and to
develop a strategy to ensure that the charter schools comply with AHERA.

        OECA is willing to work with the U.S. Department of Education, State Education
Associations, the National Parent and Teacher Association and other groups to disseminate
AHERA information, particularly aimed at charter schools. However, given the severe budget
constraints facing EPA's compliance monitoring and enforcement programs, OECA will not
direct the Regions to invest additional resources in compliance assistance or monitoring in the
AHERA program.

        The audit, similar to other audits conducted by OIG of EPA's enforcement program, only
looked at an individual program component without accounting for resource limitations or how
enforcement priorities are determined. There is no analysis of the relative importance of this
particular component of our program as compared to other program components or of our
diminishing resources, which limit the value of the report.

       Regarding OECA recent evaluation of Small Federal Programs, the Office has identified
national investment areas with critical resource needs and that are areas of high risk,
noncompliance and/or environmental impact: lead based paint; wetlands; and the Oil Pollution
Act and spills. OECA has asked the Regions to shift resources into these important areas in FY
2001. The draft report at page 11 inaccurately states that at the time of the audit, "EPA
Headquarters was suggesting a "disinvestment" from the Agency's asbestos inspection
program." The AHERA program was discussed as a "disinvestment" area, however, Regions



                                Internet Address (URL) • http://www.epa.gov
      Recycled/Recyclable • Printed with Vegetable Oil Based Inks on Recycled Paper (Minimum 30% Postconsumer)
have flexibility to strategically choose the amount of resources to be shifted in the investment
areas, as well as to choose "disinvestment" areas, based on the unique circumstances in the
Region. If a Region chooses to "disinvest" in a particular program, the Region is still required to
maintain a core program including activities to determine compliance problems and to develop
strategic approaches to solving those problems.

       I agree that there are environmental problems that remain unaddressed in the AHERA
program and that resource constraints are a factor. However, given the already enormous
responsibility and workload shouldered by the compliance and enforcement program here in
OECA and in the Regional offices, I do not believe that the risks attributed to non-compliance
under AHERA outweigh Region III's local priorities or our national priorities, such as the risk
posed by petroleum refineries or coal fired power plants.

       If you have questions please contact me at (202) 564-2440 or have your staff contact
Seth Heminway at (202) 564-7017.

cc:    Michael Alushin, OC/ METD
       Jesse Baskerville, ORE/TPED
       Eric Schaeffer, ORE
                                 APPENDIX 3

                                 Distribution

Office of Inspector General

Headquarters Office
 Inspector General (2410)
 Deputy Assistant Inspector General for Internal Audits (2421)

Divisional Office
 Audit Follow-up File (Mid-Atlantic Audit Division)
 Divisional Office of Inspectors General

EPA Region III

Regional Administrator (3RA00)
Director, Waste and Chemicals Management Division (3WC00)
Associate Director for Enforcement (3WC30)
Chief, Pesticides/Asbestos Programs and Enforcement Branch (3WC32)
Audit Follow-up Coordinator (3PM70)
Region III Library (3PM50)

EPA Headquarters

Comptroller (2731A)
Agency Follow-up Coordinator (2724A)
Agency Follow-up Official (2710A)
Agency Audit Liaison (2201A)
Assistant Administrator for Enforcement and Compliance Assurance (2201A)
Associate Administrator for Congressional and Intergovernmental Relations
(1301A)
Associate Administrator for Communications, Education and Media Relations
(1101A)
Director, Office of Regional Operations (1108A)
Director, Office of Children’s Health Protection (1107)




                                       37

                                                            Report No. 2000-P-00024
